888?

.r

No.

Supreme Court, U.S.
FILED

jars

01 nt\

OFFICE OF THE CLERK ■

IN THE
SUPREME COURT OF THE UNITED STATES

BO ZOU

— PETITIONER
(Your Name)
vs.

LINDE ENGINEERING NORTH AMERICA. INC. _ RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

BO ZOU
(Your Name)
4920 S Yorktown Avenue, #122
(Address)
Tulsa, OK 74105
(City, State, Zip Code)

713-835-8655
(Phone Number)

QUESTION(S) PRESENTED

1. How did the United States Court of Appeals for the Tenth Circuit make its decision on
injunctive reliefs in conflict with not only the U.S. Supreme Court’s decision, but also the
decisions of the United States Court of Appeals for the Ninth Circuit?

2. May Respondent and Respondent counsels’ guilt and crime, contempt be covered and
protected in violation of U.S. laws and Statutes?

3. Did the local rules of the District Court supersede U.S. laws and Statutes?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

BoZou v. Linde Engineering North America, Inc., No. 19-cv-554, U.S. District Court for
the Northern District of Oklahoma.

Preliminary Injunctions entered Sept. 21, 2020.

BoZou v. Linde Engineering North America, Inc., No. 20-5099, U.S. Court of Appeals for
the Tenth Circuit.

Denial entered December 31, 2020.

TABLE OF CONTENTS

OPINIONS BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE AND FACTS

6

REASONS FOR GRANTING THE WRIT

12

CONCLUSION

15

INDEX TO APPENDICES

APPENDIX A: Order of U.S. Court of Appeals for the Tenth Circuit dismissing Appeal
filed December 2, 2020.
APPENDIX B: Order of U.S. Court of Appeals for the Tenth Circuit denying Panel
Rehearing and Rehearing En Banc filed December 31, 2020.
APPENDIX C: Opinion and Order by Magistrate Judge of U.S. District Court for the
Northern District of Oklahoma issuing preliminary injunctions to
protect guilt, crime and contempt, etc. filed September 21, 2020.
APPENDIX D: Order by District Judge of U.S. District Court for the Northern District
of Oklahoma denying Petitioner’s objections to both injunctions and
protection of guilt, crime and contempt, etc. filed December 14, 2020.

TABLE OF APPENDICES

APPENDIX A.

a1

APPENDIX B

a3

APPENDIX C

a4

APPENDIX D

a15

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Gulfstream Aerospace Corp. v. Mayacamas Corp.
485 U.S. 271, 279 (1988)......................................

11,12

Orange County v. Hongkong & Shanghai Banking Corp.
52 F.3d 821, 825 (9th Cir. 1995)................................

13

Tri-State Generation & Transmission Ass’n, Inc. v. Shoshone River Power, Inc.
874 F.2d 1346, 1351 (10th Cir. 1989).................................................................

13

Carson v. American Brands, Inc.
450 U.S. 79, 84 (1981)..........

13, 14, 15

Buckingham v. Gannon (In re Touch America Holdings, Inc. ERISA Litig.)
563 F.3d 903, 906 (9th Cir. 2009)..............................................................

13, 15

Negrete v. Allianz Life Ins. Co. ofNorth America
523 F.3d 1091, 1097 (9th Cir. 2008)................

13, 15

Thompson v. Enomoto
815 F.2d 1323, 1326-27 (9th Cir.1987)

14

Baltimore Contractors, Inc. v. Bodinger
348 U.S. 176, 181 . Pp. 83-86...........

14

STATUTES AND RULES

18 U.S. Code § 1621 (2),

.3,8

28 U.S. Code § 1746

.3,8

28 U.S. Code § 636 (e)(4).

,3, 9, 10, 11, 16

28 U.S. Code § 636 (b)(1)(A),
28 U.S. Code § 1291
28 U.S. Code § 1292(a)(1),

A, 9, 11
12
12, 13

8 U.S. Code § 1324c.

,4,8

Fed. E. App. P. 35(f)

6

Fed. R. App. P. 40,

6

Oklahoma Statue title 21, § 1572,

,5,8

Oklahoma Statue title 21, §1624

,5,8

OTHER

Local Rule LCvR 37.2(a).
Local Rule LCvR1.2(a).

10, 11, 16
10

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X| For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A, B to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

C, D to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[XI For cases from federal courts:
The date on which the United States Court of Appeals decided my case
December 2. 2020
was
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
December 31. 2020
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix_B.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date) in
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

18 U.S. Code § 1621 (2) provides:
(2) in any declaration, certificate, verification, or statement under penalty of perjury as
permitted under section 1746 of title 28, United States Code, willfully subscribes as true any
material matter which he does not believe to be true;
is guilty of perjury and shall, except as otherwise expressly provided by law, be fined
under this title or imprisoned not more than five years, or both. This section is applicable
whether the statement or subscription is made within or without the United States.
28 U.S. Code § 1746 provides:
Wherever, under any law of the United States or under any rule, regulation, order, or
requirement made pursuant to law, any matter is required or permitted to be supported,
evidenced, established, or proved by the sworn declaration, verification, certificate,
statement, oath, or affidavit, in writing of the person making the same (other than a
deposition, or an oath of office, or an oath required to be taken before a specified official
other than a notary public), such matter may, with like force and effect, be supported,
evidenced, established, or proved by the unsworn declaration, certificate, verification, or
statement, in writing of such person which is subscribed by him, as true under penalty of
perjury, and dated, in substantially the following form:
(2) If executed within the United States, its territories, possessions, or commonwealths: “I
declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and
correct. Executed on (date). (Signature)”.
28 U.S. Code § 636 (e)(4) provides:
(4) Civil contempt authority in civil consent and misdemeanor casesIn any case in which a United States magistrate judge presides with the consent of the
parties under subsection (c) of this section, and in any misdemeanor case proceeding
before a magistrate judge under section 3401 of title 18, the magistrate judge may

3

exercise the civil contempt authority of the district court. This paragraph shall not be
construed to limit the authority of a magistrate judge to order sanctions under any other
statute, the Federal Rules of Civil Procedure, or the Federal Rules of Criminal Procedure.
28 U.S. Code § 636 (b)(lXA) provides:
(1) Notwithstanding any provision of law to the contrary—
(A) a judge may designate a magistrate judge to hear and determine any pretrial
matter pending before the court, except a motion for injunctive relief, for judgment on
the pleadings, for summary judgment, to dismiss or quash an indictment or
information made by the defendant, to suppress evidence in a criminal case, to dismiss
or to permit maintenance of a class action, to dismiss for failure to state a claim upon
which relief can be granted, and to involuntarily dismiss an action. A judge of the
court may reconsider any pretrial matter under this subparagraph (A) where it has
been shown that the magistrate judge’s order is clearly erroneous or contrary to law.
8 U.S. Code § 1324c provides:
(a) Activities prohibited
It is unlawful for any person or entity knowingly—
(1) to forge, counterfeit, alter, or falsely make any document for the purpose of
satisfying a requirement of this chapter or to obtain a benefit under this chapter,
(2) to use, attempt to use, possess, obtain, accept, or receive or to provide any forged,
counterfeit, altered, or falsely made document in order to satisfy any requirement of this
chapter or to obtain a benefit under this chapter,
(3) to use or attempt to use or to provide or attempt to provide any document lawfully
issued to or with respect to a person other than the possessor (including a deceased
individual) for the purpose of satisfying a requirement of this chapter or obtaining a
benefit under this chapter,
(4) to accept or receive or to provide any document lawfully issued to or with respect
to a person other than the possessor (including a deceased individual) for the purpose of

4

complying with section 1324a(b) of this title or obtaining a benefit under this chapter, or

(d) Enforcement
(3). Cease and desist order with civil money penalty
With respect to a violation of subsection (a), the order under this subsection shall
require the person or entity to cease and desist from such violations and to pay a
civil penalty in an amount of —
(A) not less than $250 and not more than $2,000 for each document that is the subject
of a violation under subsection (a), or
(B) in the case of a person or entity previously subject to an order under this paragraph,
not less than $2,000 and not more than $5,000 for each document that is the subject
of a violation under subsection (a).
Oklahoma Statue title 21, § 1572 provides:
Every person who, with intent to defraud, falsely alters, destroys, corrupts or falsifies:
1. Any record of any will, codicil, conveyance or other instrument, the record of which is, by
law, evidence; or,
2. Any record of any judgment in a court of record, or any enrollment of any decree of a
court of equity; or,
3. The return of any officer, court or tribunal to any process of any court, is guilty of forgery
in the second degree.
Oklahoma Statue title 21, § 1624 provides:
The total or partial erasure or obliteration of any instrument or writing, with intent to
defraud, by which any pecuniary obligation, or any right, interest or claim to property is or
is intended to be created, increased, discharged, diminished or in any manner affected, is
forgery in the same degree as the false alteration of any part of such instrument or writing.

5

STATEMENT OF THE CASE AND FACTS
Petition for panel rehearing and rehearing En Banc was timely filed in Petitioner’s case.
The United States Court of Appeals for the Tenth Circuit denied Petitioner’s petition for panel
rehearing without any cause and rehearing En Banc pursuant to Fed. R. App. P. 40 and 35(f).
The final decision was entered on December 31, 2020. See APPENDIX B. The jurisdiction of
this Court is invoked under 28 U.S. Code § 1254 (1) for the denial of the Tenth Circuit.
Plaintiff/Petitioner filed Petitioner’s complaints against Defendant/Respondent’s
discrimination against Petitioner’s race and age on October 18, 2019.
In discovery phase, Petitioner requested Respondent to produce documents, respond to
interrogatories and answer requests for admissions.
In Plaintiffs Motion to Compel Production ofDocuments for Fourth Set ofRequests for
Documents, and Motion for Sanctions (District Court Case: Dkt. No. 86) filed on July 31, 2020,
Plaintiff provided factual evidence for the District Court that Defendant and Defendant’s
counsels committed guilt and crime in perjury and falsifying documents in answering
Plaintiffs first and second sets of interrogatories. Nee Dkt. No. 86.
(1). In answering Plaintiffs First set of Requests of Interrogatories No. 8, Defendant
stated that “Kenny Sharp and Dustin Duncan are both tenured Piping Engineers with design
experience,Nee Dkt. 86, EXHIBIT “9”, Pg. 7 (emphasis added).
(2). In answering Plaintiffs Second set of interrogatories No. 20, Defendant stated that
“There is not a position titled as ‘tenured' Piping Engineer. Piping Engineers Kenny Sharp
and Dustin Duncan began working at Linde before than Plaintiff, making them senior in
tenure and status to Plaintiffat the time of the reduction-in-force....” See Dkt. No. 86,
6

EXHIBIT “10”, Pg. 4 (emphasis added).
(3). However, in answering Plaintiffs Third set of interrogatories No. 23, Defendant
stated that “Dustin Duncan was hired as a PDS Designer 1 on or about April 11, 2011. He was
promoted to Piping Designer II on or about April 1, 2013. On or about January 4, 2016, he was
promoted to Piping Design Engineer. Kenny Sharp was hired as a Piping Designer on or about
June 23, 2014. He was promoted to Piping Design Engineer on or about August27, 2018." See
Dkt. No. 86, EXHIBIT “3” Pg. 4 (emphasis added). From Defendant’s answers in Plaintiffs
Third set of interrogatories, both Dustin Duncan and Kenny Sharp’s job titles are piping
design engineer only. NOT “piping engineer”.
(4). In the documents “Linde [Zou] 001071—Linde [Zou] 001076"provided by Defendant
(Dkt. No. 86, EXHIBIT “11”), this Court can see both Dustin Duncan and Kenny Sharp’s job
titles are piping design engineer only, too, NOT “piping engineer”.
(5). On October 18, 2019, Plaintiff also provided the factual evidence for the District Court
to show both Dustin Duncan and Kenny Sharp’s job titles are only Piping Design Engineers.
Both of them are 36 year old. The factual evidence shows only Plaintiff s job title is piping
, engineer at Defendant. ASieeDkt. No. 146, EXHIBIT “1”, or Dkt. No. 1, Pgs. 24, 25.
(6). In answering Plaintiffs first set of requests for admissions, Defendant also admitted
both Dustin Duncan and Kenny Sharp were piping design engineers, and they only reported to
Eli McDaniel, NOT to the engineering manager Gerald (Jerry) Gump. See Dkt. No. 30,
EXHIBIT “3”, Pg. 6, Admission Nos. 2, 3.
(7). In answering Plaintiffs third set of requests for admissions, Defendant denied both
Dustin Duncan and Kenny Sharp were piping engineers until the end of August, 2020. See Dkt.

7

No. 146, EXHIBIT “4”, Pg. 5, Admission No. 18.
(8). Defendant also admitted Plaintiffs job title is piping engineer. See Dkt. No. 30,
EXHIBIT “3”, Pg. 6, Admission No. 1.
Plaintiff is unique piping engineer at Defendant. Piping engineer is Plaintiffs job title.
Defendant and Defendant’s counsels falsified fake job titles “Piping Engineer” for both Dustin
Duncan and Kenny Sharp to try to demonstrate both Dustin Duncan and Kenny Sharp were
“senior in tenure and status to Plaintiffat the time of the reduction-in-forceBut, Defendant
and Defendant counsels’ falsification failed and committed perjury. So, Defendant and
Defendant’s counsels are guilty of perjury and shall, except as otherwise expressly provided by
law, be fined under this title or imprisoned not more than five years, or both pursuant to 18
U.S. Code § 1621 (2) because Defendant signed under penalty of perjury under 28 U.S. Code §
1746. See Dkt. No. 30, EXHIBIT “4”; Dkt. No. 60, EXHIBIT “4”; Dkt. No. 86, EXHIBIT “5”,
or Dkt. No. 125, EXHIBITS “2”, “3”.
Moreover, Defendant and Defendant’s counsels committed crime in falsifying documents.
(1). In Linde [Zou] 001071—Linde [Zou] 001073, Defendant falsified some contents and
data, intentionally deleted Dustin Duncan’s position between January 1, 2020 and June, 2020.
See Dkt. No. 86, EXHIBIT “11”.
(2). In Linde [Zou] 001075, Kenny Sharp’s job position is intentionally deleted in the
period between January 1, 2020 and May 6, 2020. S'eeDkt. No. 86, EXHIBIT “11”. Defendant
and Defendant’s counsels must be severely punished in falsifying documents pursuant to
8 U.S. Code § 1324c, Oklahoma Statue title 21, § 1572 and Oklahoma Statue title 21, § 1624.
However, magistrate judge Jodi F. Jayne intentionally overlooked, ignored and never

8

considered the facts and factual evidence, which demonstrate Defendant and Defendant
counsels’ perjury and falsified document. Magistrate judge never mentioned or discussed
Defendant and Defendant counsels’ perjury and falsified document in her rulings. See
APPENDIX C, Pg. a8. By contrast, magistrate judge ruled on Plaintiffs motion for sanctions
(Dkt. No. 86) as frivolous motion without any cause and a hearing to cover and protect
Defendant and Defendant counsels’ guilt and crime. See APPENDIX C, Pg. a!2.
On August 6, 2020, Plaintiff filed Plaintiffs motion for contempt (Dkt. No. 89) for
Defendant’s violation of the Court orders and refusal to produce the documents, RFP 2, 3, 4, 6,
7, 21, 26, ordered twice by magistrate judge Jodi F. Jayne herself. See Dkt. No. 37, Pgs. 3, 5, 6;
Dkt. No. 70, Pg. 3. It’s in contempt of the Court for Defendant to refuse to abide by the Court’s
order to produce the documents.
Pursuant to 28 U.S. Code § 636 (e)(4), magistrate judge does NOT have any civil contempt
authority unless both parties consent to magistrate judge. In this case, both parties never
consent to magistrate judge. However, magistrate judge knew that she does not have any civil
contempt authority, but, willfully and blatantly violated 28 U.S. Code § 636 (e)(4) to rule on
Plaintiffs motion for contempt (Dkt. No. 89) as frivolous motion without any cause to cover
and protect Defendant and Defendant counsels’ contempt. See APPENDIX C, Pg. a 12.
Furthermore, magistrate judge blatantly violated 28 U.S. Code § 636 (b)(1)(A) to issue
preliminary injunctions to prohibit Petitioner from following:
(1). Prohibiting Plaintiff from filing any further motions for sanctions or for contempt in
relation to any of Defendant’s current discovery responses.
(2). Prohibiting Plaintiff from issuing any further written discovery requests to

9

Defendant, absent leave of Court.
(3). Limiting both parties’ deposition to four (4) fact witnesses.
See APPENDED C, Pgs. a!2, a!3, a!4. Magistrate judge issued the preliminary injunctions to
protect Respondent’s guilt, crime and contempt.
On December 14, 2020, District Judge John F. Heil finally ruled on Petitioner’s motions
(Dkt. Nos. Ill, 114) appealed to him on September 25 & October 2, 2020, respectively.
Petitioner objected to magistrate judge’s rulings and order, which are clearly contrary to law,
in Petitioner’s two motions. Like magistrate judge, District Judge never mentioned and
discussed Plaintiffs motion for sanction (Dkt. No. 86) involving in Defendant and Defendant
counsels’ guilt and crime in perjury and falsifying documents. But, District Judge supported
magistrate judge’s ruling on Petitioner’s motion for sanction (Dkt. No. 86) as frivolous motion.
District Judge’s ruling is without base in law and facts and contrary to law, either. See
APPENDIX D.
Further, District Judge doesn’t think that magistrate judge violated 28 U.S. Code § 636
(e)(4) to rule on Plaintiffs motion for contempt (Dkt. No. 89) based on Local Rule LCvR 37.2(a).
(See APPENDED D, Pg. a20. District Judge’s ruling is based on his cause that Local Rules of
the District Court supersede U.S. laws and Statutes. However, the Rules of Procedure of the
District Court provide: “(1) The rules of procedure in any proceeding in this Court shall be as
prescribed by the laws of the United States, the rules of the Supreme Court of the United
States, the Federal Rules of Civil Procedure, the Federal Rules of Criminal Procedure, any
applicable rules of the United States Court of Appeals for the Tenth Circuit, and these local
rules.” Local Rule LCvR1.2(a). It’s common sense that U.S. laws and statutes supersede any

10

local rules. So, Local Rule LCvR 37.2(a) is inapplicable to Plaintiffs motion for contempt
Magistrate judge violated 28 U.S. Code§636 (e)(4) and 636 (b)(1)(A) in excising civil contempt
authority to rule on Plaintiffs motion for contempt (Dkt. No. 89) and issue injunctive reliefs to
prohibit Plaintiff from filing any further motions for contempt to protect Respondent in
contempt of the Court.
But, District judge supported Magistrate judge’s ruling. District judge’s ruling is clearly
contrary to law, either. District judge’s ruling also involves in whether Local Rules supersede
U.S. laws and Statutes. The U.S. Supreme Court need to make the decision for the issue.
Moreover, Petitioner appealed to the U.S. circuit Court of the Tenth Circuit of Appeals
timely. However, the panel in the Tenth Circuit erred in citing case Gulfstream Aerospace
Corp. v. Mayacamas Corp., 485 U.S. 271, 279 (1988) to consider magistrate judge’s preliminary
injunctions only as the conduct or progress of litigation and dismiss Petitioner’s appeal. See
APPENDED A. Also, the order issued by the Tenth Circuit is signed by the Clerk of Court, not
signed by a judge. The Tenth Circuit never published and posted the dismissal order online
even though the order of the Tenth Circuit is in conflict with the decisions of not only the U.S.
Supreme Court but also the Ninth Circuit.
Petitioner filed the Petition for Panel Rehearing and Rehearing En Banc to the Tenth
Circuit timely on December 11, 2020. See Case No. 20-5099: Document 10793027. Finally, the
Tenth Circuit denied Petitioner’s petition for rehearing without any cause on December 31,
2020. See APPENDIX B.

11

REASONS FOR GRANTING THE PETITION
Petitioner’s petition for Writ of Certiorari should be granted by the U.S. Supreme Court
and the reasons are as follows:
(a) The Panel in the Tenth Circuit erred in citing case Gulfstream Aerospace Corp. v.
Mayacamas Corp., 485 U.S. 271, 279 (1988) to consider magistrate judge’s preliminary
injunctions only as the conduct or progress of litigation. In Gulfstream Aerospace Corp. v.
Mayacamas Corp., 485 U.S. 271, 279 (1988), a district court order denying a motion to stay or
dismiss an action when a similar suit is pending in state court is not immediately appealable
under 28 U.S. Code § 1291 or 1292 (a)(1). The situation in Gulfstream Aerospace Corp. v.
Mayacamas Corp., 485 U.S. 271, 279 (1988) is entirely different from that of Petitioner’s case.
In this case, it’s magistrate judge to willfully and blatantly violate 28 U.S. Code § 636(b)(1)(A)
to issue preliminary injunctions to prohibit Petitioner from following:
(1). Prohibiting Plaintiff from filing any further motions for sanctions or for
contempt in relation to any of Defendant’s current discovery responses.
(2). Prohibiting Plaintiff from issuing any further written discovery requests to
Defendant, absent leave of Court.
(3). Limiting both parties’ deposition to four (4) fact witnesses.
(b) An injunction is a court order requiring a person to do or cease doing a specific
action. Once the court makes its decision, the parties must abide by the ruling. Magistrate
judge ordered Petitioner to cease filing any further motions for contempt or for sanctions,
prohibit Petitioner from issuing any further written discovery requests to Respondent, etc.
Magistrate judge’s order is a direction from the quote to do or not to do something. Magistrate
12

judge’s order has practical effect as injunctions do based on the essential attributes of an
injunction: (1) directed to a party, (2) enforceable by contempt, and (3) grant or deny part or all
of the ultimate relief sought in the litigation. See Orange County v. Hongkong & Shanghai
Banking Corp., 52 F.3d 821, 825 (9th Cir. 1995).
On the other hand, an order need not be labeled “injunction” to be covered by 28 U.S.
Code § 1292(a)(1). Review is authorized under 28 U.S. Code§1292(a)(l) “[w]hen an order,
although not expressly denying or granting an injunction, has the practical effect of doing so.”
See Tri-State Generation & Transmission Ass’n, Inc. v. Shoshone River Power, Inc., 874 F.2d
1346, 1351 (10th Cir. 1989).
Moreover, an order that does not expressly grant or deny an injunction may nevertheless
be appealable under 28 U.S. Code § 1292(a)(1) if it: (1) has the practical effect of granting or
denying an injunction; (2) could cause serious or irreparable harm; and (3) can only be
“effectually challenged” by immediate appeal. See Carson v. American Brands, Inc., 450 U.S.
79, 84 (1981); Buckingham v. Gannon (In re Touch America Holdings, Inc. ERISA Litig.), 563
F.3d 903, 906 (9th Cir. 2009), Negrete v. Allianz Life Ins. Co. ofNorth America, 523 F.3d 1091,
1097 (9th Cir. 2008). Magistrate judge’s order effectively precludes Petitioner from
proceedings in discovery and further other actions, and has serious and irreparable
consequences to harm Petitioner in discovery and trial.
The serious and irreparable consequences include that Respondent may arbitrarily
continue falsifying documents and evidence and presenting falsified evidence to the district
court, being in contempt of the Court, and refusing to produce any documents, etc. But,
Petitioner cannot file any motions for sanctions or for contempt for Respondent’s any further

13

guilt and crime, contempt or other misconducts.
Further, Petitioner is prohibited from issuing any further written discovery requests to
Respondent, absent leave of Court, and is limited to depose only four (4) fact witnesses.
Respondent would not and might refuse to produce any further documents. At the same time,
Petitioner would not get any further evidence from Respondent or little evidence from limited
fact witnesses. It’s severely irreparable consequences to harm Petitioner, and very difficult for
Petitioner to get further evidence to allege Respondent’s discrimination against Petitioner’s
race and age. Magistrate judge’s prohibition order would change the direction of this lawsuit.
There is a substantial likelihood that the Respondent will eventually prevail on the merits with
the help of Magistrate judge’s prohibition order.
Magistrate judge’s order can be effectively challenged only by immediate appeal because
if Petitioner awaited the final determination of this case, Petitioner would lose the chance in
getting further evidence, and further lose all claimed reliefs and the lawsuit. See Thompson v.
Enomoto, 815 F.2d 1323,1326-27 (9th Cir.1987), Carson v. American Brands, Inc., 450 U.S. 79,
84 (1981), Baltimore Contractors, Inc. v. Bodinger, 348 U.S. 176,181. Pp. 83-86.
So, magistrate judge’s order to prohibit Petitioner from filing any further motions for
sanctions or for contempt, and from issuing any further written discovery requests to
Respondent, etc. is a preliminary injunction. The order has the essential attributes of an
injunction and practical effect as injunctions do. It’s clearly erroneous for the panel in the
Tenth Circuit to consider magistrate judge’s preliminary injunctions only as the conduct or
progress of litigation. The decision of the panel in the Tenth Circuit is in conflict with the
decisions of not only the U.S. Supreme Court, but also the Ninth Circuit. The decision of the

14

panel in the Tenth Circuit should be reversed by the U.S. Supreme Court.
Petitioner’s petition also involves in some very important issues, which are exceptionally
important to the public, (1) whether Respondent and Respondent counsels’ guilt, crime and
contempt may be protected knowingly in violation of U.S. laws and Statutes. (2) whether Local
Rules may supersede U.S. laws and Statutes. (3) whether the decision of the Tenth Circuit in
conflict with the decisions of not only the U.S. Supreme Court but also the Ninth Circuit may
not be published, and only signed by the Clerk, not by a judge
It’s exceptionally important for the public to know these issues whether to be solved by
the U.S. Supreme Court.
The U.S. Supreme Court should grant Petitioner’s petition to solve the conflict of
injunctions between the Tenth Circuit and not only the Supreme Court, but also the Ninth
Circuit. The U.S. Supreme Court should overrule the district court’s preliminary injunctions,
which are without any base in law and facts.

CONCLUSION
The United States Court of Appeals for the Tenth Circuit make its decision on injunctive
reliefs in conflict with not only U.S. Supreme Court's decision in Carson v. Am. Brands, Inc.,
450 U.S. 79, 84 (1981), but also the decisions made by the United States Court of Appeals for
the Ninth Circuit in Buckingham v. Gannon (In re Touch America Holdings, Inc. ERISA Litig.),
563 F.3d 903,906 (9th Cir. 2009); Negrete v. Allianz Life Ins. Co. ofNorth America, 523 F.3d
1091, 1097 (9th Cir. 2008).
The Panel in the Tenth Circuit did not consider the essential attributes and the practical
15

effect of magistrate judge's order, and make a decision conflicting with the authoritative
decisions of not only the U.S. Supreme Court but also the Ninth Circuit. Therefore, there is an
overriding need for national uniformity.
The Supreme Court should overrule injunctions issued by the district court and reverse
the decisions made by the Tenth Circuit to keep national uniformity.
Moreover, the U.S. Supreme Court should solve the issue that the district Court use Local
Rules to supersede U.S. laws and Statutes. For example, the district court use Local Rule
LCvR 37.2(a) (See APPENDIX D, Pg. a20) and General Order 05-09 (See APPENDIX C, Pg.
a4, footnote: 1) to supersede 28 U.S. Code § 636 (e)(4) and grant magistrate judge to rule on
Plaintiffs motion for contempt (Dkt. No 89).
Furthermore, the U.S. Supreme Court should solve the issue that Respondent and
Respondent counsels’ guilt, crime, and contempt are covered and protected in violation of U.S.
laws and Statutes. It’s exceptionally important for the public to know whether U.S. laws and
Statutes should be abided by.
The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: January 7, 2021

16

